f

A)

VIRGINIA:
3n the Supreme Count of, Virginia held at the Supreme Count {Building in the
City, of Richmond on Jueoday the 7th day of CLpdl, 2C20.
Sebastian Cortez-Hemandez,
against

Appellant,

Record No. 191259
Circuit Court No. CL18-7683

Harold W. Clarke, Director,

Appellee.

From the Circuit Court of Prince William County

Upon review of the record in this case and consideration of the argument submitted in
support of the granting of an appeal, the Court is of the opinion there is no reversible error in the
judgment complained of. Accordingly, the Court refuses the petition for appeal.
Senior Justice Millette took no part in the resolution of the petition.

A Copy,
Teste:
Douglas B. Robelen, Clerk
By:
Deputy Clerk

VIRGINIA:
IN THE CIRCUIT COURT FOR THE 31st JUDICIAL CIRCUIT
SEBASTIAN CORTEZ-HERNANDEZ
Petitioner
v.
,

)
)
)
)
)
)

Case No. CL18-7683

HAROLD CLARKE, DIRECTOR OF
)
THE DEPARTMENT OF CORRECTIONS )
Respondent

)
>
)

ORDER
THIS MATTER came before the Court on the Petitioner’s Motion to Vacate his criminal
conviction pursuant to Va. Code § 8.01-428 (c); and
Upon consideration whereof, it appearing that the' statutory grounds cited by the
Petitioner do not provide authority for this Court to vacate the Petitioner’s convictions, the Court
declines to hear the Petitioner’s Motion to Vacate.
The Clerk is directed to mail copies of this order to the defendant, his counsel and the
Director of the Department of Corrections.
This is a final order and the case is removed from the docket.

A COpv Tj-zSTE:
PRINCE WILLaV -'"‘OUNTY
C! PHK O-Ri

Entered this

day of February, 2019

The Honorable Steven S. Smith
Circuit Court Judge

*Pursuant to Rule 1:13 of the Rules oif the Supreme Court of Virginia, the requirement of endorsement by the parties
is dispensed with by the Court.

